<html>
<title> - [H.A.S.C. No. 114-50]OUTSIDE PERSPECTIVES ON THE DEPARTMENT OF DEFENSE CYBER STRATEGY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                                    
                         [H.A.S.C. No. 114-50]

                        OUTSIDE PERSPECTIVES ON

                       THE DEPARTMENT OF DEFENSE

                             CYBER STRATEGY

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 29, 2015


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                               ____________
                               
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE
97-196                        WASHINGTON : 2016                     
                             
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b5d2c5daf5d6c0c6c1ddd0d9c59bd6dad89b">[email&#160;protected]</a>  

 
                                    
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
PAUL COOK, California                MARK TAKAI, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
BRAD R. WENSTRUP, Ohio               BRAD ASHFORD, Nebraska
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
BRADLEY BYRNE, Alabama               PETE AGUILAR, California
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
                 Kevin Gates, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                          Neve Schadler, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Committee on Armed Services....................................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Bejtlich, Richard, Chief Security Strategist, FireEye, Inc.......     3
Delfino, Dominick, Vice President, World Wide Systems 
  Engineering, Networking and Security Business Unit, VMware, 
  Inc............................................................     6
Schmidt, Dr. Lara, Senior Statistician, Associate Director, RAND 
  Project Air Force, RAND Corporation............................     8
Wallace, Ian, Senior Fellow, International Security Program, and 
  Co-Director of the Cybersecurity Initiative, New America 
  Foundation.....................................................     5

                                APPENDIX

Prepared Statements:

    Bejtlich, Richard............................................    43
    Delfino, Dominick............................................    62
    Schmidt, Dr. Lara............................................    77
    Wallace, Ian.................................................    54

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Shuster..................................................    95
    Mr. Walz.....................................................    96


    OUTSIDE PERSPECTIVES ON THE DEPARTMENT OF DEFENSE CYBER STRATEGY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Tuesday, September 29, 2015.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Cyber is deeply ingrained in virtually every facet of our 
daily lives, at work, at home, in our schools, and in 
government. We are incredibly dependent upon it, and therefore 
we are incredibly vulnerable to disruptions or attacks that 
affect it.
    Cyber is a great enabler for our daily lives, but the 
threats also pose a significant danger to our national security 
as well. What adds complication is that various estimates show 
85 percent of the infrastructure that needs to be protected is 
owned by the private sector. And so the role of government in 
protecting not only itself, but the country in this new domain 
of warfare is a major challenge for us.
    So that is part of the reason this committee is devoting a 
week to cybersecurity issues. We are starting today with an 
outstanding panel of experts to not only share their insights, 
but set up the discussion for the remainder of the week. 
Tomorrow we will have the deputy secretary of defense and the 
commander of CYBERCOM [U.S. Cyber Command] before us. The 
Emerging Threats and Capabilities [ETC] Subcommittee has a 
classified briefing on cyber later in the week.
    Cyber, of course, is normally in ETC's jurisdiction, but 
because it does translate to all aspects of this committee's 
work and because of these overall policy issues, the full 
committee is having these hearings today and tomorrow.
    As I say, there are a number of questions. What is the role 
of the Federal Government in defending that 85 percent of the 
infrastructure? How do you have deterrence in cyberspace? Do we 
have the necessary authorities and rules of engagement to 
engage in cyber warfare? Are we acquiring the people and the 
capabilities that we need? Do we have a strategy that can deal 
with what some of our adversaries are doing? What effect do 
things like the agreement that the Chinese and the President 
have reached this week have on cyber? Just some of the 
questions for us to explore.
    So I really appreciate to start off our cyber week having 
this outstanding panel of experts. Before we turn to them, I am 
going to yield to the distinguished ranking member of the 
Emerging Threats and Capabilities Subcommittee, Mr. Langevin, 
for any comments he would like to make.

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
           RHODE ISLAND, COMMITTEE ON ARMED SERVICES

    Mr. Langevin. Thank you, Mr. Chairman.
    And thank you to our witnesses for appearing before us 
today on the Department of Defense's new Cyber Strategy 
released in April 2015. I certainly look forward to hearing 
what you have to say.
    Ranking Member Smith is going to be joining us a little 
later today, so I will be delivering a synopsis of his remarks 
on his behalf.
    So I look forward to hearing the witnesses' perspectives on 
the five strategic goals, their views on the objectives 
outlined in the strategy in order to achieve those goals, and 
what else we should be thinking about to improve the posture of 
the Department of Defense [DOD] in the cyber domain.
    Cybersecurity is an issue that the chairman, the ranking 
member, and I have been focusing on throughout our tenure on 
the Armed Services Committee. Our time on the Emerging Threats 
and Capabilities Subcommittee has given us all insight into 
what has been recognized since 2013 by the Director of National 
Intelligence as the number one strategic threat to national 
security. We have worked in coordination with the Department of 
Defense across the whole of government and with the private 
sector for many years to better enable the country to deter, 
defend, and respond to cyberattacks.
    Despite best intentions, as a nation we are not keeping 
pace, though, with the sophisticated and ever-evolving cyber 
threat. The DOD has made progress. But as Admiral Mike Rogers 
noted in his June 2015 Vision and Guidance for the U.S. Cyber 
Command, I quote: ``The Department is still in the very early 
stages of harnessing the power of our Nation's cyber 
enterprise.''
    I believe the new Cyber Strategy will better guide the 
Department in its efforts to harness the cyber enterprise. The 
five strategic goals--building and maintaining ready forces and 
capabilities; defending the network, securing data and 
mitigating risk to missions; being prepared to defend the 
homeland and U.S. vital interests from cyberattacks of 
significant consequence; building and maintaining a viable 
cyber operations, and plan to use those options to control 
conflict escalation and shape the conflict environment; and 
building international alliances and partnerships to deter and 
increase stability--set the stage for the U.S. to gain an 
advantage across the cyber domain, an advantage we desperately 
need, as evidenced by the recent hack of the Joint Staff 
unclassified network.
    Yet, not all of these goals and objectives are necessarily 
new concepts. Many are significant issues that Congress and the 
Department have discussed for years. Yet, execution of the 
objectives has presented technological, policy, and doctrinal 
challenges at the tactical, operation, and strategic levels. 
The new strategy provides us an opportunity to confront and 
address those challenges so our goals can become reality sooner 
rather than later.
    For instance, we know the Department needs qualified 
military and civilian personnel in order to build and maintain 
forces to conduct cyber operations. But how does the Department 
compete with the private sector for highly skilled individuals, 
especially in a budget-constrained environment.
    This committee has also been hearing about the necessity 
for an effective cyber deterrence strategy for several years. 
Time has shown the need for such an effective policy has only 
grown, but we are still grappling with how to approach 
deterrence given the difficulty of attributing attacks and the 
overall strategic implications of such a policy. So deterrence 
requires us to relook at the way we tend to think about 
warfare, about what constitutes an act of war.
    I look forward to the witnesses' views on this issue, as 
well as how we can operationalize other aspects of cyber. These 
are just a few of the issues that I hope that we will examine 
today.
    Chairman Thornberry, I want to thank you for holding this 
hearing. I know of your commitment and interest in cyber 
issues, the work that we have done together both on the 
Emerging Threats and Capabilities Subcommittee and our many 
years together on the House Permanent Select Committee on 
Intelligence have given us particular insights into the 
challenges in this space. And, again, I appreciate the 
attention that the full committee is giving to this issue this 
week.
    With that, I thank the chairman. And I yield back.
    The Chairman. I thank the gentleman. He is exactly right, 
he and I have grappled with this issue for a number of years. 
And I very much appreciate Chairman Wilson and the gentleman 
from Rhode Island in their efforts to pursue this at the 
subcommittee level. And, certainly, the full committee is not 
and cannot replace that diligence that they bring to this 
important issue.
    Let me, again, welcome our witnesses. We have Mr. Richard 
Bejtlich, chief security strategist for FireEye; Mr. Ian 
Wallace, senior fellow and co-director of the Cybersecurity 
Initiative at the New America Foundation; Mr. Dominick Delfino, 
vice president at VMware; and Dr. Laura Schmidt at the RAND 
Corporation.
    I appreciate the written testimony that each of you have 
submitted. I have read it. And I will ask unanimous consent to 
have that included in the record. Without objection.
    And so, if you would please, summarize your testimony 
before us, and then we will turn to questions.
    Mr. Bejtlich, if you would like to begin.

   STATEMENT OF RICHARD BEJTLICH, CHIEF SECURITY STRATEGIST, 
                         FIREEYE, INC.

    Mr. Bejtlich. Chairman Thornberry, Ranking Member Smith, 
distinguished members of the committee, thank you for the 
opportunity to testify. I am Richard Bejtlich, chief security 
strategist at FireEye. I am also a nonresident senior fellow at 
the Brookings Institution and I am pursuing a Ph.D. in war 
studies from King's College, London. I began my security career 
as a military intelligence officer in 1997 at the Air Force 
Information Warfare Center.
    Speaking today as a FireEye strategist and as a former 
military officer, I assess the new DOD Cyber Strategy as a 
transition document. Previous strategies emphasized DOD's role 
as protecting DOD networks from attack. The current document 
restates this role and adds a new, albeit limited, mission to, 
quote, ``defend the U.S. homeland and vital interests from 
disruptive or destructive cyberattacks of significant 
consequence.''
    Stepping outside the beltway for a moment, it might be 
natural to ask what about OPM [Office of Personnel Management] 
or even what about Sony. For these reasons, I believe DOD's 
strategy is a step in the right direction, but one that needs 
to be augmented by additional measures.
    Now, at this point in my written remarks I cover four 
associated topics: Private sector security capabilities, 
attribution, hack-back, and acquisition. But in order to meet 
my time limit, I respectfully refer you to those written 
documents. And here I would like to turn straight to five 
recommendations to improve the Nation's digital security.
    First, I recommend that DOD and the Intelligence Community 
modify the nature of offensive digital operations against 
national adversaries. According to open source intelligence 
tradecraft and stories published in open media, U.S. Government 
offensive digital activities currently focus on traditional 
espionage targets. These operations fulfill collection 
requirements such that U.S. Government decisionmakers can 
execute their duties based on accurate and actionable 
intelligence.
    Foreign intelligence services also conduct these 
operations. However, foreign intelligence services, military 
units, and other teams also attack private sector companies in 
this country and elsewhere. They also attack civil society 
organizations and even individuals.
    U.S. offensive digital capabilities should therefore be 
ordered to directly target the foreign teams that are attacking 
private U.S. entities. By putting pressure on these foreign 
teams, U.S. victims would receive some relief from the 
relentless waves of foreign hacking campaigns. By pressure, I 
mean low-level activities that introduce friction and 
uncertainty into the minds and processes of foreign hackers.
    For example, U.S. offensive teams could quietly corrupt 
tools and infrastructure used by foreign teams against domestic 
targets. They could periodically crash foreign computers used 
to hack U.S. targets or degrade bandwidth used to transport 
malicious traffic. The idea is to introduce obstacles into 
foreign hacking operations such that they are working uphill 
when trying to attack U.S. victims.
    Second, the DOD, the IC [Intelligence Community], and 
partners should consider indirect ways to help protect U.S. 
private sector and associated targets. If government actors 
learn that private entities are being targeted by a foreign 
adversary, they should be more willing to warn of the attack 
before it happens. Our current strategy is essentially we tell 
the victim after they have been hacked, which that is valuable, 
many times that is the only way a victim learns, but we need to 
know earlier in the process.
    Third, I recommend that the Congress and DOD should sponsor 
a study into creating an independent cyber force. As a former 
captain who performed the computer network defense mission in 
the Air Force, I am very pleased to see the existing military 
services improving the career paths and opportunities for 
today's troops. For example, I spoke at an Army Cyber Institute 
event last week and I watched two young Army captains explain 
how they would apply cyber tactics to a simulated physical 
combat mission.
    Unfortunately, I was reminded of the challenges facing 
these young officers when an audience member warned that the 
pair's noncyber colleagues might, quote, ``think they were 
playing warrior,'' and that their makeshift technical solutions 
might appear to be a toy. These cultural barriers are real and 
inherent in each military service's ethos.
    Fourth, and this is stepping outside DOD a little bit but 
it affects the entire government, I recommend that the 
President appoint a U.S. chief information security officer or 
U.S. CISO. The executive branch already has a U.S. chief 
information officer [CIO] and a chief technology officer [CTO]. 
This is similar to the situation of many private sector 
businesses before a breach, but after a breach they quickly 
change. Thus far, the government has not changed. We still 
don't have a U.S. CISO. And I would put that person at the 
level of current U.S. CTO and U.S. CIO personnel.
    Finally, I recommend the administration should develop the 
capability to take asymmetric actions that target adversary 
core interests, but in a way the leverages our strengths 
against their weaknesses. In my written statement, I discuss 
one example involving China's Great Firewall.
    I look forward to answering your questions.
    [The prepared statement of Mr. Bejtlich can be found in the 
Appendix on page 43.]
    The Chairman. Thank you.
    Mr. Wallace.

STATEMENT OF IAN WALLACE, SENIOR FELLOW, INTERNATIONAL SECURITY 
 PROGRAM AND CO-DIRECTOR OF THE CYBERSECURITY INITIATIVE, NEW 
                       AMERICA FOUNDATION

    Mr. Wallace. Chairman Thornberry, Ranking Member Smith, 
distinguished members of the committee, thank you for inviting 
me to testify about the Department of Defense's strategy for 
cybersecurity. I am Ian Wallace. I am a fellow in the 
International Security Program at New America. And I am the co-
director of New America's Cybersecurity Initiative.
    As I set out in my written testimony, the DOD's strategy is 
a necessary and welcome update to the 2011 Strategy for 
Operating in Cyberspace. And as such, I think it does a good 
job of identifying and describing the actions that will be 
necessary for the DOD to meet the challenges it faces today. 
And it also, I have to say, shows an admirable new level of 
transparency in the way that the DOD discusses these issues.
    But no strategy is perfect, and in my written testimony I 
offer two particular ways in which I think the committee can 
usefully help the DOD improve on the strategy. The first of 
these will be to ensure that the DOD does not fall into the 
trap of becoming the default choice for responding to threats 
against the Nation's civil infrastructure. The second will be 
to ensure that despite the undoubted cyber threat that the 
United States faces today, the DOD is also properly thinking 
about the future operating environment in which U.S. forces 
will fight.
    Both these points are important. But while the immediacy of 
the current threats are alarming and the issues like deterrence 
and attribution undoubtedly deserve further discussion, I 
encourage members not to lose sight of my second point.
    To understand the importance of thinking ahead about the 
implications of new technology, let me for a moment offer the 
analogy of the advent of military aviation. My own country, 
Britain, emerged from the First World War as a leader in 
carrier aviation. By the beginning of the Second World War, 
Britain had been eclipsed by the United States, and this new 
capability was obviously crucial in America's prosecution of 
that war.
    There were a number of reasons for this, but they include 
United States willingness to do four things that are highly 
relevant to our current situation. Those four things were the 
willingness to engage in operational experimentation, a 
willingness to actively foster new thinking about operational 
concepts in the top military educational establishments, a 
willingness to make big organizational changes based on those 
new concepts, and perhaps most importantly, a willingness to 
encourage the best and brightest--that includes the likes of 
Halsey, Nimitz, and King--to make this new technology central 
to their careers.
    History does not repeat itself exactly. In the 21st 
century, the DOD's response to new cyber capabilities will need 
to be much more joint than the approach taken in the 1920s and 
1930s. But now, as then, longsighted action and the support, 
even active pushing of Congress, will be crucial to maintaining 
the United States military edge in future military operations.
    I look forward to your questions.
    [The prepared statement of Mr. Wallace can be found in the 
Appendix on page 54.]
    The Chairman. Thank you.
    Mr. Delfino.

   STATEMENT OF DOMINICK DELFINO, VICE PRESIDENT, WORLD WIDE 
  SYSTEMS ENGINEERING, NETWORKING AND SECURITY BUSINESS UNIT, 
                          VMWARE, INC.

    Mr. Delfino. Chairman Thornberry, Ranking Member Smith, and 
members of the committee, thank you for the opportunity to 
testify today on the Department of Defense's Cyber Strategy. I 
am Dominick Delfino, vice president of World Wide Network and 
Security Systems Engineering at VMware. I ask that my full 
statement be submitted for the record.
    We believe that the DOD Cyber Strategy is a good first step 
toward improving the Department's cyber posture. However, as 
with any strategy, the complexity is in the execution of the 
implementation. With respect to goal number one, building 
cyber-ready forces and capabilities, VMware believes that this 
challenge can be managed with industry-proven practices, such 
as using technology that is available today to mimic currently 
evolving threats. Once in place, these cyber classrooms can 
provide on-demand training to warfighters globally.
    We also recommend that DOD leverage automation technologies 
to simplify cyber detection. By automating responses that can 
be just as rapidly undone, the Department can empower today's 
network professionals with the ability to stop threats 
immediately without having to wait for complex systems changes.
    For recruiting experienced personnel, the Department should 
consider using programs like the government's special hiring 
authority that is used to pay higher wages for people who have 
specialized skills. We also recommend creating a clear 
promotion path to command-level responsibility for cyber 
warriors.
    For goal number two of the Cyber Strategy, defending the 
DOD information networks, we believe a new approach to network 
architecture is needed. As we have seen in the recent private 
sector and government attacks, hackers were able to penetrate 
perimeter systems and gain access to networks where they were 
free to access and steal sensitive data over a period of 
several months.
    Hackers typically use this attack methodology because 
traditional perimeter-centric security systems are structurally 
designed to be doors to the network. These doors serve to allow 
authorized users access to network systems and to prevent 
unauthorized users from getting inside the network. Once the 
intruder has penetrated perimeter security, there is no simple 
means to stop malicious activity within the data center without 
extreme disruption to the government's mission.
    For example, imagine a street with homes on it as an 
analogy for a network with servers in a data center. Let's 
assume there is a corridor that connects every home on the 
street. If an intruder can manage to break into one home, the 
intruder now has complete access to all of the other homes on 
the street, even though their doors to the street are locked, 
because there is a trusted passage between them. In technology 
terms, the larger and the flatter the network and the more 
servers on the network, the higher the probability the hacker 
will be able to penetrate one server and leverage it to 
compromise others on that same network.
    In order to prevent an attacker from moving freely within 
the network, the Department should compartmentalize its 
networks, implementing what is called a Zero Trust or micro-
segmented environment. A Zero Trust environment prevents 
unauthorized movement by minimizing the attack surface of the 
network. When a user or system breaks the rules, the potential 
threat incident is compartmentalized and security staff can 
take any appropriate defensive actions. This limits the 
intruder's ability to move around freely within the network and 
significantly mitigates the impact of a successful perimeter 
breach. This approach is being widely adopted by the commercial 
sector, including the financial industry and some areas of the 
government.
    We applaud the Department's efforts to move towards the 
Joint Information Environment [JIE] and believe if done 
correctly it will significantly enhance the cyber posture of 
the DOD. We believe that the DOD should leverage the existing 
cloud technologies it owns and consolidate those workloads to 
move into the JIE first, measuring success through a scorecard. 
We also recommend the Department review how it treats 
unclassified business systems. Currently these systems, such as 
email, personnel, and payroll, are treated differently than 
classified mission-critical systems under current DOD 
practices.
    Finally, for goal number three, defending the homeland from 
cyberattacks, we recommend two approaches in addressing these 
initiatives. The first is to automate security features. This 
will allow the Department to proactively deploy 
countermeasures. The second approach is to use predictive 
methods to quantify attacks and likely actions based on their 
early stage. Investing in these capabilities will yield 
significant benefits by preventing later-stage and more serious 
attacks based on the precursor activities.
    In summary, when implementing its Cyber Strategy, we 
believe the DOD should establish aggressive goals for 
automating the management of its IT [information technology] 
infrastructure security controls. The Department should also 
cut the common thread linking every major breach by 
implementing a Zero Trust security model to reduce attacker and 
threat mobility within the network. Finally, the Department 
should implement a scorecard to aggressively and manage each 
command's progress towards moving to the JIE.
    Thank you for the opportunity to testify today. I look 
forward to answering any questions the committee might have.
    [The prepared statement of Mr. Delfino can be found in the 
Appendix on page 62.]
    The Chairman. Thank you.
    Dr. Schmidt.

 STATEMENT OF DR. LARA SCHMIDT, SENIOR STATISTICIAN, ASSOCIATE 
       DIRECTOR, RAND PROJECT AIR FORCE, RAND CORPORATION

    Dr. Schmidt. Thank you. Chairman Thornberry, Ranking 
Member, and members of the committee, I am honored to be here 
today to discuss this important topic. My name is Lara Schmidt 
and I am a senior researcher at the RAND Corporation.
    As I described in my written statement, the 2015 DOD Cyber 
Strategy clearly defines DOD's missions in cyberspace, and as 
is typical for a strategy, establishes several goals to ensure 
DOD is able to accomplish these missions. The goals are: to 
build and maintain ready forces and capabilities to conduct 
cyber operations; to defend DOD networks, secure DOD data, and 
mitigate risks to DOD missions; to build and maintain viable 
cyber options and plan to use them in the range of conflict 
scenarios DOD may face; to be prepared to defend the homeland 
and U.S. vital interests from cyberattacks of significant 
consequence; and finally, to build and maintain international 
alliances and partnerships to deter threats and increase 
stability and safety, security. The strategy also identifies a 
series of implementation objectives to achieve these goals.
    With all that said, I have four main points I would like to 
share with you about the 2015 DOD Cyber Strategy. First, a 
capable cyber workforce is critical to achieving the goals laid 
out in the strategy. But the commercial sector is also vying 
for high-quality personnel with the same skill sets. However, 
DOD has an opportunity to learn from the commercial sector to 
attract capable military, civilian, and contractor personnel. 
Research into commercial hiring and retention practices shows 
that for most of this workforce, it does not all come down to 
pay, and even on that scale, DOD is not as bad off as many 
fear.
    The one exception is the market for the few personnel with 
elite cybersecurity skills, these so-called ninjas, who are a 
competitive advantage for cybersecurity and other firms and as 
a result, command large salaries.
    My second point, despite the excitement surrounding DOD 
offensive and defensive cyber operations, it is important to 
remember that the bulk of the workforce is involved in the 
critical job of configuring and maintaining DOD hardware, 
software applications, and networks around the world. Ensuring 
the continued functioning of these systems and networks, even 
in the absence of cyberattack, is crucial. Therefore, this DOD 
IT workforce, or as DOD calls it the DODIN [Department of 
Defense Information Network] workforce, requires continued 
support as well.
    Third, DOD has adopted a risk management approach to 
securing its systems across their life cycle, and this is 
commendable. However, it is a challenging undertaking due to 
the scale of DOD systems and networks, the ever-changing cyber 
threat, and the hard choices that will need to be made to 
prioritize risk mitigation efforts. Adequate resources and 
practical approaches need to be brought to bear to effectively 
implement the risk management framework.
    Fourth, the strategy seeks to integrate cyber operations, 
including offensive operations, into military plans for all 
stages of conflict. In order to do this, the Department must 
take a scientific approach to evaluating whether offensive 
cyber capabilities will achieve the intended effects when 
called upon and avoid unintended effects. Doing so requires 
significant rigorous testing, data collection, and analysis 
efforts.
    So in conclusion, it is my view that the DOD Cyber Strategy 
lays out an ambitious set of goals that are well aligned to 
operationalizing cyber. However, implementing the initiatives 
needed to achieve these goals will be challenging due to the 
difficulties in quickly building and maintaining a capable 
workforce, assessing risk across the large number of DOD 
networks and systems, and planning for operations in this 
highly dynamic environment. Achieving the goals of the strategy 
will take time and significant resources. I appreciate the 
opportunity to discuss this topic and I look forward to your 
questions.
    [The prepared statement of Dr. Schmidt can be found in the 
Appendix on page 77.]
    The Chairman. Great. Thank you. I appreciate all of you all 
being able to get a lot into a short amount of time in your 
oral statements. But, as I said, I appreciate your written 
statements as well.
    I think a lot of notable historical figures have made the 
point that it is more important to get the questions right, in 
a way, than it is to get the answers, or at least you ought to 
spend more time and effort focused on what the proper questions 
are before you attempt to find the answers. So I would just 
like to ask each of you, what is the primary proper question 
for us as policymakers to ask or to grapple with when it comes 
to cyber?
    I have thought that maybe it was, what is the appropriate 
role of the military in defending the private sector 
infrastructure? Mr. Wallace kind of addressed that in his 
comments. But that may not be the most important question for 
us to ask. Maybe it is on the people side. Maybe it is 
something else.
    So without trying to steer you in any direction, for 
policymakers, what do you think the most important question or 
issue for us to grapple with when it comes to cyber and our 
country's security?
    Mr. Bejtlich.
    Mr. Bejtlich. Sir, I would define it as, what is the 
acceptable level of loss for this country? For example, I don't 
want to equate the country to a store, but every store accepts 
a certain amount of shrinkage, in other words, theft from the 
store. We accept in the geopolitical realm a certain amount of 
instability. We have to define in this realm, what is it that 
we are willing to tolerate? You could argue simply by inaction 
we are tolerating quite a bit right now in terms of theft of 
intellectual property, theft of personally identifiable 
information. Essentially by inaction, we have determined that 
that is acceptable.
    Now, do we want to push back on that and say, no, we are 
not going to accept that? I think the President has done a 
little bit of that now with China, although we can talk more 
about that. But that to me is the central question, what is the 
acceptable level of loss and how do you define that loss?
    The Chairman. Okay.
    Mr. Wallace.
    Mr. Wallace. As I mentioned earlier, I think the 
appropriate role of the military is an important question. The 
other important question that I think needs to be asked is, in 
a world where technology is effectively leveling out the 
differences between countries and their ability to engage 
against each other, how does the U.S., and particularly the 
U.S. military, maintain its advantage? And if that is no longer 
technology, I think the answer is likely to be in its ability 
to build alliances and in the quality of its people. But that 
doesn't happen by accident. That requires investment and 
forward planning.
    The Chairman. Okay. Thank you.
    Mr. Delfino.
    Mr. Delfino. I think the appropriate question is, how do we 
move from a stature of managing compliance to a stature of 
managing risk? Legislation can only be passed so frequently. 
And we are in a world where the dynamics of this is changing 
daily. And how do we really put a defensive posture in place 
and potentially an offensive posture in place that manages the 
risk with the association of potential DOD systems and 
infrastructure and military capabilities being breached?
    The Chairman. Okay.
    Dr. Schmidt.
    Dr. Schmidt. I agree with Mr. Delfino. I think that the 
most important question in my mind is, how is DOD postured to 
protect its own networks, its own data, its own missions 
against the evolving cyber threat? And it all comes down in the 
strategy to the implementation plan of a risk-assessment 
approach.
    The Chairman. Okay. I think there is more to pursue there, 
but I want to get to other members.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Again, I want to thank our witnesses for your very 
insightful testimony.
    I guess I would like to start, first of all, with Mr. 
Bejtlich, on your call for a Federal CISO. And I have felt 
similar for quite some time and have had legislation in for 
years now calling for a director's position in the Executive 
Office of the President that has both policy and budgetary 
authority to reach across government to compel departments and 
agencies to do what they need to do to close our cyber 
vulnerabilities. Right now, we do not have anyone in charge, 
ostensibly, in that respect. The closest we have is the 
cybersecurity coordinator. It is a special assistant to the 
President position, but it is advisory and has no policy and 
budgetary authority. Not even the Secretary of Homeland 
Security doesn't even have the ability to reach across 
government and compel departments and agencies to do that.
    So you called for a Federal cybersecurity officer. My 
vision had been that this director's position would apply 
mainly to the .gov domain. Are you suggesting that this Federal 
chief information security officer would have jurisdiction both 
over DOD operations as well as .gov or would you separate the 
two?
    Mr. Bejtlich. Thank you for the question, sir. I would 
separate the two. Traditionally in government IT we have carved 
out DOD and IC systems from the rest of the approaches. And in 
my experience, DOD and the IC are doing the best job as far as 
defending themselves.
    They also have a unique culture in a sense that they do 
something called projecting friendly forces on the network. In 
other words, they assume that they are compromised and they are 
out there looking for the adversaries. This is a culture shift 
that needs to take place in the rest of the government, in the 
civilian side of the government.
    And that would be my initial mandate to the Federal CISO, 
would be to bring that culture of going out there and looking 
for intruders in the Federal networks, as opposed to continuing 
to build higher walls. Which we do need to improve Federal 
security, there is no doubt, but you need to have two missions, 
finding the intruders and kicking them out and also improving 
security.
    Mr. Langevin. Good. Thank you.
    So for the panel, when it comes to violence in the physical 
domain, society by and large manages to keep a lid on our worst 
impulses or at least has established a countervailing structure 
of rule of law. However, we seem to have a deficit of 
structures of a similar nature with sufficient influence over 
cyberspace, particularly supranational issues.
    Moreover, it seems increasing clear that we as a global 
society have a tactical deficit when it comes to defense in 
cyberspace. The Internet ecosystem is not solid defense and 
defense agility in equal measure to the offensive capabilities 
it unleashes.
    Would you agree? And if so, how do we harness our S&T 
[science and technology] capabilities in our global influence 
to turn this picture around?
    Mr. Delfino. If I may, Congressman. I think an element of 
this has to be compared to terrorism, right? Cyberterrorism is 
analogous to terrorism. And our enemy only has to be right once 
and we have to be right every single time. So I think the 
effort that this Nation has put into dealing with the threat of 
terror within the Nation, we need to take similar aspects and 
attributes and efforts and put them into cyberterrorism as 
well.
    Mr. Langevin. Thank you.
    Anyone else?
    Mr. Bejtlich. Sir, if I could offer, when we think about 
risk as security professionals, we have three levers we can 
pull: There is vulnerability, there is the threat, and there is 
the consequences or cost of an intrusion.
    In my community, the tactical community, we have spent way 
too much time, in my opinion, on the vulnerability side. It is 
important to reduce vulnerabilities, but we are moving to an 
Internet of things where there are tens of billions of devices 
on the Internet, and trying to reduce the vulnerabilities in 
all of them is just too much. Similarly, on the cost side, we 
increasingly have more and more information on the Internet.
    So I do recommend that we do as much as possible to 
minimize. In fact, I saw Representative Buchanan has a bill to 
try to get rid of Social Security numbers on tax returns. I 
think that is a wonderful idea.
    But the one part of that equation that is really not 
exploding--I mean it is growing, but not exploding--is the 
threat side. The head of Interpol the other day said that he 
estimates there are only about 100 malware kingpins in the 
world. These are the top-level guys who can write the worst 
malware for criminal purposes. A hundred of them compared to 
tens of billions of devices we have to secure. I would put much 
more emphasis on, as Mr. Wallace mentioned, working with our 
allies, going after those criminal groups. I think that would 
bring a little bit more security to the Internet.
    Mr. Langevin. Thank you.
    My last question--and I will have others, but for right now 
given time constraints--it is no secret that the cybersecurity 
workforce is challenged and it can be difficult to mesh the 
private sector and the needs of government. Certainly the 
National Guard plays an important role in bridging that divide, 
and I am extremely proud to host the 102nd Network Warfare 
Squadron in the Rhode Island National Guard in my district. The 
Guard is and will remain a critical pathway for the DOD to 
access expertise that it otherwise, frankly, could not afford. 
It is an important model and one that has many variants. I am 
reminded particularly of Estonia, which has a cyber defense 
league operating under a volunteer paramilitary model.
    Is the strategy being creative enough when it comes to ways 
to both integrate the capabilities of the Guard and access the 
capabilities of the private sector, be it through Secretary 
Carter's outreach to Silicon Valley, some paramilitary program 
such as Estonia's, or any other model?
    Mr. Wallace. I very much agree that the National Guard 
offers important opportunities for ways to involve people in 
the implementation of the DOD's strategy, experts that wouldn't 
otherwise be able to be used. But I do think we need more work 
to understand exactly how that will work in the future and 
avoid slipping into a situation where we militarize problems 
that don't necessarily need to be militarized.
    There is a real question about how you spread 
responsibilities between civilian experts and military experts, 
and simply pulling the experts into the military isn't always 
the best solution. It may be the best way to deal with 
supporting warfighters in fighting wars, but in terms of 
defending civil infrastructure, one of the things we have to do 
is make sure that we better understand how the private sector 
and defense can work together.
    Dr. Schmidt. If I could just add a few things. I think that 
your point about the National Guard and the Reserve Forces is 
an excellent one. They stand to provide the longevity that is 
required to maintain the technical depth that is necessary to 
perform these cyber mission roles. However, the question that I 
would ask is, are they well aligned with their expertise in 
their civilian sector jobs? Are they engaged in cyber 
activities there such that they can be bringing that expertise 
to DOD or are they doing completely different things in their 
civilian lives?
    You also asked about the new--is the strategy being 
innovative enough, forward thinking enough to take on these new 
initiatives for getting the workforce that we need. And I think 
that one of the positive things that has happened lately has 
been the release of the new DOD Directive 8140, which basically 
aligns job roles with the knowledge, skills, and abilities that 
are required to perform those roles and identifies three 
separate categories of cyber-oriented jobs: an IT category, a 
cybersecurity category, and a cyber effects category. And this 
is the first time we have seen that kind of clarity coming out 
for workforce management. I think it stands to really align the 
training that is required to do those types of jobs and lay 
forward career progression that is an effective strategy for 
DOD.
    Mr. Langevin. Thank you, Dr. Schmidt.
    Mr. Delfino, do you have any comment?
    Mr. Delfino. Well, I believe Dr. Schmidt covered most of my 
thoughts as well. I do believe that we need to have a 
consistent focus on recruiting the proper talent into those 
roles, whether they be military, civilian, Guard, reservists, 
et cetera, so on and so forth. And I do believe, as Dr. Schmidt 
outlined in her oral testimony, that the government can be 
competitive with the private sector marketplace, particularly 
when they target recruits and candidates who are early in 
career and use methodologies like we have in the ROTC [Reserve 
Officers' Training Corps] where we can actually offer 
scholarships to these individuals going into universities and 
partner with the right universities with the right academic 
programs in computer science, and then have them serve some 
mandatory period of time postgraduate in either a military or 
civilian capability to fight our cyber efforts.
    Mr. Langevin. Thank you.
    Mr. Bejtlich, do you have any comment?
    Mr. Bejtlich. Yes, sir, quickly. I endorse Under Secretary 
Carson's work to make DOD more flexible. One of the things we 
should consider is being able to take an Active Duty person, 
have them work at FireEye for 2 years, we would love to have 
them, and then send them back to DOD. We need this fluidly to 
go back and forth between the private sector and the public 
sector.
    Secondly, just as an issue with the Guard, I love the 
Guard, I have done some exercises with them. Sometimes they 
beat the regular forces at the fort. However, we have to be 
careful, some of those same people who are working in the 
Guard, if the flag goes up and they have to do DOD duty, they 
are not going to be around to defend Bank of America or another 
place that we really care about. So that is why I am partial to 
looking into a cyber force where we do have people whose job it 
is, if things get really bad, to take care of those bad 
problems.
    Mr. Langevin. Thank you, Mr. Chairman. I have other 
questions. But I will yield back.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Mr. Chairman, first of all, I want to thank you 
for your leadership in this area and for having this hearing. I 
also want to thank Mr. Wilson for the efforts that his 
subcommittee is doing in this area and continues to do.
    And as the chairman said, sometimes it is important for us 
to ask the right question. In this area, there are so many 
questions to ask and it is so big and so complicated. I would 
like to maybe narrow in on just one. Under the current DOD 
practices, unclassified business system networks, such as email 
and payroll, are not defended as strongly as classified 
networks.
    Mr. Delfino, you have highlighted how an attack on an 
unclassified payroll system at DOD could impact the morale and 
families of DOD employees if the payroll system were to be 
compromised. You also mentioned an important point, that as the 
Department is implementing its network defense across the 
enterprise, it should review how it treats unclassified 
business system networks. As you know, these systems were 
recently the subject of a cyberattack.
    Do you think that DOD should be treating unclassified 
networks any differently than classified networks? And what 
recommendations do you have for the committee to improve their 
cyber posture.
    Mr. Delfino. Thank you for the question, Congressman 
Forbes.
    So I do believe while systems may be unclassified from a 
national security perspective or from a confidentiality 
perspective, they may be no less mission critical to the DOD or 
its efforts as well. And I don't believe they should be treated 
differently from a security posture perspective as it relates 
to its technology controls at all.
    And many times these systems will, with less security, will 
be leveraged as a jumping-off point for a hacker. This happens 
in private enterprise many, many times. We have seen it happen 
in multiple government attacks as well. And they should be 
treated with the same model, they should be treated with the 
same security controls. Albeit they may be separated from the 
classified systems, it doesn't mean that there is a need for 
less security on those systems. As I referred to, a Zero Trust 
security model or a micro-segmented security model would be one 
foundational aspect of how to secure these systems as well.
    Mr. Forbes. We appreciate the expertise of all of our 
witnesses. Do any of you agree or disagree with Mr. Delfino in 
his assessment of the problem there?
    Dr. Schmidt. I would just mention that the DOD is taking a 
risk-management approach to managing the security of their 
networks, and that requires not only understanding how the 
systems are going to be used and the vulnerabilities, but also 
the threats.
    One of the large pieces of implementing a risk-management 
framework, though, is tracing what missions use what systems, 
whether it is a computer or a server or an integrated circuit 
somewhere deep within a weapon system, and understanding how 
those missions are dependent on the computer systems that could 
be attacked. It is a huge analytic effort, it is difficult, and 
it is something that DOD is going to have to grapple with.
    Once they identify the risks to those systems, they would 
then protect them accordingly, and that is all part of a risk-
assessment initiative. And I agree with your original statement 
that it doesn't necessarily depend on classification, it 
depends on impact to the mission.
    Mr. Forbes. Thank you.
    Mr. Wallace. I would endorse the comments of Dr. Schmidt. I 
think in a risk-management approach some information will be 
inherently more sensitive than other bits of information. The 
trick in this new environment is understanding your risk and 
acting appropriately.
    Mr. Forbes. Good. Thank you so much.
    Well, thank you all very much.
    And with that, Mr. Chairman, I yield back.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you all for being here and providing your outside 
expertise. We appreciate it.
    You are all talking about risk management, risk assessment, 
and how important that is. I am wondering if you feel that we 
should be exploring or really where do you think that tools of 
deterrence fit and how are we developing those, how should we 
be developing those. What do you think makes sense?
    Mr. Bejtlich. Ma'am, I believe that there is a certain 
amount of deterrence in play now. There are actors who have the 
capability to cause substantial damage to different companies 
and organizations, and yet they don't. We have only seen a few 
examples. Sands Casino, apparently Iranian actors. Sony 
Pictures in the U.S., North Korean actors. There is plenty more 
that could be done, but it hasn't happened. So there is a 
certain amount of deterrence that is occurring.
    The question, though, has been at the subdestruction level, 
the destruction of data, subphysical level, there has been a 
lot of activity, mostly in the form of theft of business 
secrets. Hopefully that will change. I am not sure if it will, 
but we will see.
    Mrs. Davis. To what extent is the fact that we don't always 
know where things are coming from?
    Mr. Bejtlich. Well, ma'am, in my testimony I address 
attribution, and there has been a revolution in attribution 
over the last 5 years, both, I would say, in the government, 
but also in the private sector. Just last week, two security 
companies essentially revealed the entire life story of a 
Chinese hacker operating out of Kunming. This is something that 
would have taken me months to do in the military.
    So the attribution problem, as more and more of our lives 
are online, those are hackers too, they are online, and we are 
finding out who these guys are even without having access to 
classified information. So attribution is much less of a 
problem than it was 5 years ago.
    Mr. Wallace. I would just like to build on Mr. Bejtlich's 
comments by adding that I think deterrence very definitely 
exists. But that deterrence of cyber threats doesn't have to 
happen within cyberspace.
    One of the most significant deterrents for nation-states 
particularly to attack the United States is the fact that the 
United States is the biggest military power in the world and 
adversaries know that if they step over a certain line they 
will invite a response. That, as Mr. Bejtlich points out, 
pushes the threats down to the level where below that which the 
United States would be willing to go to war.
    There are still tricky issues to manage, but to a large 
degree that counts as success and means that at least a good 
proportion of threats can be dealt with by other parts of 
government and the private sector themselves.
    Mrs. Davis. Anybody else? Are you seeing that whole-of-
government response to deterrence, though? Are we doing a very 
good job with that, bringing?
    Mr. Bejtlich. Ma'am, there have certainly been activities 
coming out of DOJ [Department of Justice] with the indictment 
of five PLA [People's Liberation Army] officers. I actually met 
with four PLA colonels several months after that happened and 
they were shocked that we had done that. So that has certainly 
played a role. I know that USTR [Office of the United States 
Trade Representative] has been looking at some activities. So 
different parts of the government have been trying to do this. 
The effects, though, are what I am waiting to see.
    Mrs. Davis. Okay.
    Dr. Schmidt. On the DOD end of things, you are talking 
about trying to change an adversary's decision calculus. So you 
can do that also by raising the costs. So efforts to improve 
the resilience of DOD systems is certainly something that you 
take into account in terms of deterrence, and also the advent 
of offensive operations that could be used to impose costs on 
the adversary and better defenses that just make it harder for 
the adversary to attack.
    Mrs. Davis. Is there a role of sanctions in that as well?
    Dr. Schmidt. Absolutely.
    Mrs. Davis. Yeah. Okay.
    One of the issues that we deal with here, and we had a 
discussion the other day about procurement, and, you know, the 
Department of Defense has had silo problems for years and 
people not really having that whole-of-government approach as 
well. But I am just wondering, within the cyber community where 
adaption has to be so critical and so important and moving 
quickly in making those changes, how would you assess the 
Department of Defense in that regard, in this area?
    Dr. Schmidt. I think one of the key ways that DOD isn't 
quite as adaptive as you would like to see is in the hiring. 
Lots of comments have been made about the speed with which the 
commercial sector can identify high-quality cyber personnel and 
hire them. But the slowness of, especially on the civilian side 
of----
    Mrs. Davis. The personnel system, yes.
    Dr. Schmidt. Yes. So I think that is one way that the DOD 
could improve to be able to be more competitive with the 
commercial sector.
    Mr. Delfino. Congresswoman, I think there are two answers 
for this question. As we talked about the people, I think we 
can talk a little bit about the technology now. As a vendor, 
the regulatory burden of doing business with the government is 
very high. It is unlike any other market that we play in. As a 
relatively young 16-year-old software company who does hundreds 
of millions of dollars in the public sector, including the DOD, 
for the most part we don't hold direct contracts, but instead 
provide products and service through resellers and distributors 
who do hold contracts with the government. This is a fairly 
substantial impediment to younger technology companies who may 
have offerings that could substantially help the DOD.
    And the second to that is funding. It is difficult for the 
customer to find ways to acquire innovative technology 
following today's acquisition appropriations process. An IT 
cycle is 24 months. However, once a product is in development, 
there is often a delay in getting it into the government.
    So the private sector has the ability here to, you know, in 
all reality stay 2 to 3 years ahead of the government if they 
choose to do so.
    Mrs. Davis. Yeah. Thank you.
    The Chairman. Thank you.
    Chairman Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And thank you and 
Ranking Member Smith for arranging for cyber week this week. We 
have the hearing today. Tomorrow again at 10. Tomorrow 
afternoon. It has been a real honor for me to work with 
Congressman Langevin as the ranking member on Emerging Threats. 
This really has been a bipartisan effort to address the issues 
we have. And we also have an extraordinary professional staff, 
as I referenced in a 1-minute yesterday.
    For Mr. Bejtlich and Mr. Wallace, you have touched on this, 
and that is in regard to attribution. What is our capability? 
And then how much attribution is necessary or can be achieved 
to provide for a response such as sanctions against 
individuals, businesses, military units, maybe a nation?
    Mr. Bejtlich. Sir, briefly, the way I like to think about 
attribution is that the government, the military, the IC have 
capabilities that exceed the private sector when you think 
about the source of attacks. They have the legal authority and 
they have the national technical means to get very close, and 
to even infiltrate, who the adversaries are.
    The private sector, on the other hand, our expertise tends 
to lie at the other end. We are with the victims. We are 
helping the victims. We are seeing what the adversary is doing 
within the victim companies.
    So when you put those two things together, we have a very 
good picture of what is happening. Now, the government doesn't 
necessarily tell us what they know. We tend to tell the 
government what we know by working through our customers.
    So you put those two things together, and when you add in 
the idea that attribution is ultimately a political question, 
it is not necessarily a technical question, you have very 
strong attribution capabilities now.
    Mr. Wallace. I would just add to what Mr. Bejtlich said to 
say that the level of attribution you require depends what you 
want to achieve. And since it is a political decision, it 
depends what political acts you want to take. One of the most, 
I think, important things going forward is going to be able to 
take other nations with you in your actions, and that is going 
to require increasingly greater level of attribution in helping 
those countries understand the reasons that you are taking the 
actions that you are.
    Mr. Wilson. And, Mr. Bejtlich, I would look forward to 
receiving information about the hacker in Kunming. Ironically, 
my dad was stationed in Kunming with the 14th Air Force in 
World War II and always he was so grateful for the opportunity 
to protect the people of China from the attacks. And so it is 
somewhat ironic now that there would be attacks from there 
potentially. There should be a reminder of the relationships 
that we have had.
    And, Dr. Schmidt and Mr. Delfino, something that I hope can 
be done, the technologies change so quickly, and, to me, there 
needs to be a real effort and advice, and I know Secretary 
Carter has been working on this, but what can be done to 
promote public-private partnership?
    Mr. Delfino. I do feel that there is a pretty strong 
public-private partnership not only within the DOD, but 
throughout other U.S. Government agencies as well. I think some 
of the risk that we manage today is due to the scale of legacy 
implementations that we have and the amount of effort it would 
take to moving something like the JIE.
    So I believe that, through reading through the documents 
and the initiatives and the goals of the JIE, there has been a 
good amount of consultation between the DOD and the private 
sector as well, and I do believe it is reflected in that 
document as well. So I commend the DOD for that.
    Dr. Schmidt. The topic of a public-private partnership is a 
bit outside my area of expertise, but I will point you to the 
recent information-sharing proposals that have come forward in 
various bills. And I think that the sentiment there is that 
while information sharing between the government and the public 
sector is possibly a beneficial arrangement, it is not 
necessarily a panacea. And there is testimony from my colleague 
Martin Libicki that explains that it depends upon the actions 
of the threat actors. And if they can get inside the time with 
which we can share information from the government to the 
corporate sector, it may not have the benefits that it is 
designed to have.
    Mr. Wilson. And we look forward to all of you in providing 
information to us on how we can expedite a public-private 
partnership.
    And a final for Mr. Bejtlich. Is there any way for us to 
respond back where there has been a hacking?
    Mr. Bejtlich. Yes, sir. I think the notion of hack-back is 
something that is often asked of the private sector. I believe 
the state should retain a monopoly on force and retain that as 
a potential state function.
    Mr. Wilson. Thank you very much.
    The Chairman. Interesting question we probably have more 
questions to ask about.
    Mr. Cooper.
    Mr. Cooper. [Audio malfunction in hearing room.]
    The Chairman. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Bejtlich, do you believe it is worthwhile for the 
Federal Government to initiate negotiations with other nations 
when it comes to avoiding cyber conflict, cyber war?
    Mr. Bejtlich. Yes, sir, I do. I think the example with 
China is a good one, where it was difficult for us to establish 
a norm saying that we should not steal each other's secrets in 
order to provide them to the private sectors of each country. 
Now that we have actually established that as a norm publicly, 
I think it is a good idea to take to other locations.
    Mr. Johnson. Does anyone disagree with that on the panel or 
have anything to add to it?
    Mr. Wallace. I would just add that we already have norms, 
even laws against countries going to war with each other. What 
we actually need to seek to do is find ways to avoid that 
happening by accident. So we shouldn't throw out all of the 
experience or the international law that exist. We need to 
better understand how we integrate cyber into those frameworks.
    Mr. Johnson. Is there a role for an international 
organization such as the U.N. [United Nations] in this new 
cyber arena where there needs to be clear rules established for 
conduct of folks internationally, both private and--or both 
government and nongovernment entities?
    Mr. Wallace. So the United Nations is already engaged in 
this area. They have a group of government experts who have 
been meeting over a number of years to sit around a table and 
negotiate, at least agree the norms of behavior that should 
exist. They have essentially over a number of years agreed that 
what happens--that international law should apply.
    What I think possibly we have to do now is move into other 
fora where blocking countries, those countries who make life 
difficult, are not present, and to move together to try to 
implement some other norms a little bit more aggressively.
    Mr. Johnson. Do you see a future where the U.S. goes it 
alone and seeks to be the world superpower, dominant, in 
control, and kind of a go-it-alone attitude about the cyber 
arena when it comes to just dominance and enforcement? I know I 
am not being eloquent with my question, but I think you might 
know what I mean.
    Mr. Bejtlich. Sir, I do know what you mean. And it is 
interesting, this is one of the fears some other countries 
have. The Chinese, for example, are very aware that much of the 
hardware--not necessarily the hardware, they make the hardware 
over there. But we make the software. We have the innovative 
companies. We have the protocols. We have the core of the 
stakeholder agreements that run the Internet, and they are 
looking for a way to better integrate and in some ways exert 
their own control over that.
    So I do believe this idea of more inclusion for all the 
affected parties matters. It was different years ago when we 
were the dominant force in terms of users. Now we are rapidly 
becoming less and less compared to the hundreds of millions of 
people elsewhere.
    Dr. Schmidt. If I could just add a few points. You will 
notice that the DOD strategy points to the need to build 
partnerships with international players on this line, not 
necessarily to dominate, as you asked originally, but to build 
security and safety for all the players.
    Mr. Johnson. Thank you. And I will yield back my time.
    Mr. Wilson [presiding]. Thank you, Mr. Johnson.
    We now proceed to Congressman Wittman of Virginia.
    Mr. Wittman. Thank you, Mr. Chairman. I thank the members 
of the panel for joining us today.
    Several of you had mentioned earlier concerning members of 
the military, and number one, their abilities, but also what we 
would do to make sure they have the proper education within 
cybersecurity. And let me get your perspective on several 
different levels.
    How important is it for us as a nation to train our future 
military leaders, specifically in the realm of cybersecurity? 
Not just a cursory introduction, but an in-depth educational 
experience at our service academies, through our ROTC programs. 
And, secondly, how important is it for us to make sure that 
every enlistee in every branch of the services gets some level 
of training and education within cybersecurity?
    It seems to me that having a higher level of expertise 
throughout the service ranks would be a great advantage to us, 
especially with the eyes and ears and the skills that they 
might have to be on the lookout, but also to think intuitively 
and creatively about not only how to prevent cyberattacks, but 
look at how we can be better defensively, but also things we 
could do on the offensive side.
    So I would like to get your perspective on that on both of 
those levels.
    Mr. Bejtlich. Yes, sir. I agree with your idea of--over the 
entire spectrum of someone's career. My wife was an operations 
officer at a basic training squadron in the Air Force. I know 
the schedule is tight, but that 18-year-old enlisted person is 
the way into the force many times. So don't put them through 
some boring set of slides where they just look and sort of 
stare at it. Put them through a little exercise, where they are 
in front of the computer; they get that email, they go to that 
Web site, whatever it is so that they know what it looks like.
    I also think it needs to be taught at the academies, as you 
mentioned, at the mid-level and senior-level schools, but this 
is also, I think, where the cyber force comes in. We need 
people who can defend themselves. We also need those people who 
think about this in that domain, and that is the way that they 
approach this problem.
    And that's what I think--I firmly believe in 20 years we 
are going to look back and wonder, how did we not have such a 
capability?
    Mr. Wallace. I think it is essential that we have better 
cyber education, as I have already argued. I think there are 
two separate aspects to that education; cybersecurity and 
awareness of the vulnerabilities at a personal level, and at a 
institutional level, also an awareness of cyber operations. I 
disagree with Mr. Bejtlich. I think imbedding an understanding 
of cyber operations within the current services may be a more 
sensible way forward.
    But I think we both agree that having a better appreciation 
of how wars will be fought in the cyber context is going to be 
essential for military leaders, and that has to start right at 
the beginning of their military education.
    Mr. Wittman. Mr. Delfino.
    Mr. Delfino. So I think certainly, those people in 
positions in the military leading people whose primary 
objective is cyber efforts need to have very deep cyber 
expertise themselves, not just be, you know, a more generalized 
leader.
    I think as it relates to the more general or the broader 
enlisted service men and women, they certainly need to be 
trained on best practices to prevent themselves from becoming a 
point of compromise and entry into the DOD infrastructure. And 
also need to learn what happens if in mid-mission a system that 
they are using or dependent upon for that mission is breached 
and is no longer there, how would they deal with that from a 
circumstances perspective as well? So, I would not attempt to 
turn every enlisted member into a cybersecurity expert, is 
likely infeasible.
    Mr. Wittman. Dr. Schmidt.
    Dr. Schmidt. I think research shows that it requires a 
depth of expertise in the cyber workforce, but also in the 
leaders of the cyber workforce. I think there is a tendency to 
think that managers can just have a broader understanding, but 
our research indicates that that is not the case. And to keep 
up with the technology trends, the evolving threats, the 
leaders also have to be deep in their expertise, and so I would 
support a deeper cyber education for military leadership, DOD 
leadership. And that has to be refreshed over time due to the 
dynamic nature of the cyberspace.
    Mr. Wittman. One additional question. How important is pay 
to retain those experts across the spectrum of needed 
expertise, but also in the different areas of the service 
branches both on the civilian side and the uniform service 
side?
    Mr. Bejtlich. So pay is important, but it is not 
everything. In 2001, when I got out of the Air Force, I didn't 
get out because I wasn't making enough money. I got out because 
there was no career path. I would have gladly stayed. I would 
have even been more inclined to stay if I knew I could go to 
the private sector for a couple of years, go back into the 
military. You can do things in the military you can't do 
anywhere else, so it is quite a retention bonus.
    Mr. Wittman. Any other thoughts? Mr. Delfino.
    Mr. Delfino. Just as in my written testimony as well, I 
think pay is a component of it, and I do believe that the 
government can be competitive there and the DOD as well. I 
believe it is also a training investment, an ongoing training 
and development investment to keep people sharp. The ability 
for them to get industry accreditations that they can use post 
their service either in the military or as a civilian in the 
Department of Defense as well. And a career path I also 
highlighted in my written testimony is very, very important for 
these individuals as well.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Wilson. And thank you, Chairman Wittman.
    We now proceed with Mr. O'Rourke of Texas.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Mr. Bejtlich, you said earlier that perhaps the most 
important question for us to answer is the amount of loss that 
we are willing to tolerate. And I like that, because if we had 
a chief information security officer that is a level to which 
we hold that person accountable and responsible for. If we are 
trying to communicate consequences to our adversaries, we can 
say, you know, this is the level, whereas now it is a little 
ambiguous.
    How would you advise us to proceed in answering that 
question? What are the factors that you take into account? And 
do you have an answer to it?
    Mr. Bejtlich. Sir, I do. I would start by taking a look at 
the metrics we use to assess whether we are winning or not. The 
way I like to describe it is this, we spend a lot of time 
measuring the height of our players, how fast they run the 40, 
where they went to college, and we don't figure out what the 
score of the football game is. So we are doing a lot of input 
metrics; we are not taking a look at what the outcome of the 
game is. So the outcome of the game in cyberspace for me would 
be how many intrusions are occurring over a certain period of 
time? What were the consequences of those intrusions? How 
quickly did we find out that it had happened?
    Just, you know, to give you an example, the front page of 
USA Today the other day said, Energy hacked 159 times in 4 
years. This is a step in the right direction? But this doesn't 
say, ``How bad was it?'' ``What actually happened?'' I could 
look at this and say, ``This isn't actually too bad.'' So we 
need to turn more towards metrics like this and less from we 
have certain numbers of systems patched and so forth.
    Mr. O'Rourke. And in terms of communicating that level of 
tolerance to an adversary, is that something that is made 
explicit, if you do this, these will be the consequences, both 
cyber and perhaps physically militarily for crossing this red 
line or this threshold?
    Mr. Bejtlich. I think there needs to be something like 
that. And I know Secretary Panetta at one point said that in, I 
think it was an October 2011 speech he gave, where he said if 
there is significant consequence to the power sector, 
financial--he laid out certain categories that they would be 
met by a response, not just as Mr. Wallace mentioned in 
cyberspace, but outside of cyberspace. So, we have to keep 
delivering that message. And when something significant 
happens, like OPM, we should take a response. We just can't 
say, well, this is something that we would have done as well.
    In the Cold War when a spy ring was uncovered, we didn't 
say, well, the Soviet Union spies. We kicked them out, we might 
kick out the ambassador. So there can be consequences that 
signal our disapproval of that action.
    Mr. O'Rourke. Mr. Wallace, I really enjoyed your analogy 
comparing what we are doing today to the development of 
military aviation prior to World War II. And you seem to 
suggest that in the United States we were rewarding risk-
taking, and through that attracting the best and brightest, and 
ensuring that they have career advancement connected to that 
risk-taking and that advancement of military aviation.
    Can you give me a specific example of what we are not doing 
in the U.S. if we are, in fact, not doing that today in cyber? 
And perhaps to ask it in a positive way, what we could be 
doing, what we should be doing, and as specific as you can get?
    Mr. Wallace. So I would say in defense of the commanders of 
today that back in the 1920s, U.S. Navy had a very clear sense 
of who its adversary was likely to be and worked around that. 
But I think they were more imaginative and they did take steps 
that are not being taken today.
    One very specific example is Admiral King. When he was a 
captain, quite advanced in his career, was taken and trained as 
an aviator so that he had the qualifications, because Congress 
had passed laws to say you needed to be an aviator in order to 
command an aircraft carrier. And therefore as some other senior 
officers got that qualification.
    So they understood not only the actual process of flying an 
aircraft, but also had an appreciation of the tactics that 
would be required and the organization, putting the carrier at 
the center of the battle fleet rather than the battleship, that 
would be necessary to go on and prevail in the operations that 
followed in the 1920s.
    Mr. O'Rourke. What is the analogy to cyber? What are we not 
doing? Who is not getting the training? Is it senior commanders 
within the Department of Defense?
    Mr. Wallace. Rather than treating cyber operators off to 
the side, as the sort of techies, it is integrating cyber into 
military operations and having those people who understand 
cyber operations as part of the group of people who go on to 
command full-spectrum operations.
    Mr. O'Rourke. Thank you.
    Mr. Chairman, I yield back.
    Mr. Wilson. Thank you, Mr. O'Rourke.
    We now proceed to Congressman Rich Nugent of Florida.
    Mr. Nugent. Thank you, Mr. Chairman. And I appreciate this 
panel.
    Now I sit on ETC, and we hear, obviously in classified 
settings, issues as it relates to how we are going to do 
certain things. But I guess what strikes me though is, you 
know, what we can tolerate or what we are willing to tolerate. 
And I don't know that we have a whole lot of discussion on 
that. And so then when you start saying, okay, what are the 
consequences to your actions? And there really--that is pretty 
undefined also.
    Do you think to date that we have been, I guess, succinct 
enough to talk about consequences to actions, particularly as 
it relates to just China and what's gone on? We heard about the 
fact that we indicted five. You know, prior law enforcement, 
that would be a problem for me if we indicted them and they 
were residents of the United States where we had extradition 
abilities, but, I mean, that sounds good, but what other 
consequences have we imposed when we clearly know who the 
actors were?
    And it is just not China. I mean, there is other actors out 
there: Russia, Iran, and others, and North Korea. What other 
sanctions have we imposed to date? Can anyone speak to that?
    Mr. Bejtlich. Sir, my own personal experience, I have been 
working intrusions by Romanian hackers, Russian, Chinese, 
criminal nation-states for--in the private sector, post-
military for 13, 14 years now, and we are only now seeing 
consequences. Now, there has been a decent amount of law 
enforcement work that has been done, but in terms of going 
after, say, businesses that have benefitted from the theft of 
commercial information, we still haven't done that.
    Mr. Nugent. Please.
    Mr. Wallace. I would say that I think we have to remember 
that the issue is bounded. There is a level which, I think, 
adversaries know they shouldn't go. There is also the fact that 
law enforcement does take care of cyber intrusions in many more 
friendly countries around the world, say, for a smaller area.
    And in relation to the PLA five, the colonels that were 
indicted. I think there is a debate as to whether that was the 
right tactical action. But I think one thing that could be said 
in favor of it, is that at least it began the process of 
preventing a negative norm, the idea that countries can act 
with impunity and not have any kind of acknowledgement that 
that is unacceptable behavior.
    Mr. Delfino. I will just add to that, that there may be 
times where we want to respond offensively cyberly, while 
maintaining confidentiality and not take a responsibility for 
those responses as well in order to not divulge our level of 
sophistication and our responses as well.
    Mr. Nugent. I agree.
    Dr. Schmidt. And to build on that, one of the things that 
the DOD strategy has set out as a goal is to be able to respond 
when a contingency comes up and the desire is to implement an 
offensive cyber capability. I think one of the critical areas 
where we need to be working is ensuring that commanders know 
how those offensive cyber capabilities will perform if they are 
called upon to be used.
    And we could be doing more in that area to characterize 
their performance and ensure that they do not have unintended 
effects.
    Mr. Nugent. I agree. One statement was made, I think Mr. 
Delfino, you were talking about, is our reliance on technology 
within the military is so high, whether it is ground troops, 
obviously, air troops, whether it is naval engagements. Are we 
doing enough in regards to challenging those members of the 
military to say, okay, this system crashed or is down because 
of a cyberattack? Are we doing enough in any of your estimation 
to, I guess, work around that particular issue? Are we doing 
enough within the military?
    Mr. Delfino. I think it is a good question. I think there 
is three attributes of what we do, you know, people and 
process, and the third one being technology. Are we doing 
enough? Are we giving these people the technology they need 
fast enough and the funding that they need fast enough to make 
the changes that they need to prevent those or recover from 
them when they happen, I think is a good question, and is part 
of why we see this JIE initiative. Because I think they have 
noted that the legacy approaches that they have been taking 
have increased complexity substantially. So it is a big 
challenge for them.
    Mr. Bejtlich. Just briefly, sir. I agree with your sense of 
that. We need to war-game with major systems not being 
available, GPS [Global Positioning System], and so forth, and 
see how people respond.
    Mr. Nugent. Mr. Chairman, my time has expired. I yield 
back. Thank you.
    Mr. Wilson. Thank you. Thank you, Sheriff Nugent.
    We now proceed to Mr. Aguilar of Texas--of California. And 
I want to thank--Congressman Aguilar actually came early, so 
this is good.
    Mr. Aguilar. And stuck around late. Thanks, Mr. Chairman. I 
appreciate it.
    Mr. Bejtlich, you mentioned in your testimony, I think the 
fifth point, how the administration should develop asymmetric 
capabilities to target the core interests of the bad actors, 
and you mentioned one. And building off of what Mr. Nugent 
mentioned, you talked about the censorship network in China. 
What other asymmetric examples do you believe are available not 
only with respect to China but other actors like Russia?
    Mr. Bejtlich. You know, it is interesting you mention 
Russia. No one really talks about the degree of instrumentation 
they have in their country. One of the interesting aspects of 
the Russia-China dynamic is that they have agreed to work on 
Internet security mechanisms. And what that really means is 
Internet control mechanisms, dissident suppression mechanisms.
    So, they are developing software to make it easier for them 
to target their dissidents both inside and outside the country. 
So, just as easily as we could go after the Great Firewall, we 
could look for vulnerabilities in that software that those two 
countries are developing and figure out ways to exploit it, 
degrade it, potentially even render it inoperable.
    Clearly, control is important to those regimes, and I gave 
one example to the Great Firewall in China, but there is 
similar activities you could do elsewhere.
    Mr. Aguilar. And what other countries? What other examples?
    Mr. Bejtlich. Well, if we are going to talk, the big ones 
we worry about, North Korea, their core interest is in the 
stability of the regime and keeping out outside influence. So 
we could work on ways to better--right now there are people 
sending DVDs [digital versatile discs] into North Korea using 
balloons. We could potentially get SATCOM [satellite 
communications] or Mesh Network equipment into that country, 
make it easier for people to get information real time rather 
than having to wait for a balloon to make it across the border.
    Mr. Aguilar. Thank you.
    Mr. Bejtlich, you also mentioned in the discussion about 
collaboration and public-private partnerships other potential 
to embed folks, my words, not yours, in private companies. Can 
you talk a little bit about structurally how that would work? 
How you would have liked that to work in 2000, 2001 when you 
were still in the military service?
    Mr. Bejtlich. It is a great question. So, I was an incident 
responder in the Air Force. I would have loved to have been 
able to go to Mandiant for 2 years. It didn't exist at the 
time, but let's say now you go to Mandiant, you do incident 
response for 2 years inside private companies; you learn how to 
use the tools that the private sector uses, you learn what 
private sector networks look like; you learn what the adversary 
does in those environments.
    At the same time the private sector company learns from 
your capabilities. You have to respect the classification and 
all that, but that dynamic is what makes for a powerful 
capability. And then, so after the 2-year period I would go 
back into the military and I would continue down my career 
path. And perhaps even go back at a later time, maybe as an 
executive, maybe at another time going and teach. While we do 
have a great educational system in this country, there is many 
people who think that security is encryption. We need more 
people who spend time in the trenches teaching that next 
generation of security professional.
    Mr. Aguilar. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Wilson. And thank you, Mr. Aguilar.
    We now proceed to Congresswoman Jackie Walorski, of 
Indiana.
    Mrs. Walorski. Thank you, Mr. Chairman. And thank you, 
panel, for being here. I appreciate it.
    I represent Indiana, where I know you mentioned this has 
been talked about before--the National Guard is looking at 
those new cyber force teams, and we are thrilled that Indiana 
is going to be involved in our National Guard.
    But I just had a question. I think, Mr. Wallace, you had 
talked about the possibility of over-relying on DOD and 
defending the Nation from cyber threat. In August, I was on a 
trip to Czech Republic. And in Czech Republic, the subject of 
Estonia came up in the 2007 giant cyberattack in Estonia, and 
they developed the cyber defense league. And I know that our 
DOD worked some with that. Any of you can answer this question. 
But I looked at that and some of the things the little tiny 
nation was able to do, which really is building an alliance 
very quickly. Is that a model that our country looks at? I know 
we are somewhat a part of it, but can you speak to the 
significance or the success Estonia has had as opposed where to 
where we are? Is that something we should look at more 
seriously?
    Mr. Bejtlich. I do. I think Estonia has the advantage of 
being small, 1.7 million people; they can be nimble. They had a 
threat that was very visible to the entire country.
    In this country, I think we could have, in addition to the 
cyber force, we could have something like a cyber corps. Now I 
know there's one that exists, but it's not really very popular. 
I'm thinking more of like a Peace Corps model where you get 
some training; you go to a one-month boot camp, and then you 
can deploy within either our country or perhaps even overseas, 
and you can be that cybersecurity expert for that small- to 
medium-size business.
    I would love to hire a person like that who had just been 
through a 2-year program out in the field. There is a big 
difference between book learning and learning out on the job. 
So there is, I think, many ways to involve people, not just in 
the military, but through government service to improve their 
cybersecurity.
    Mrs. Walorski. Mr. Wallace.
    Mr. Wallace. I would completely agree with that. I think 
Estonia is a particular case, its history, and its small size, 
the fact that people tend to know each other. But I do think 
there is something in the fact that the cyber defense league is 
both a military and a nonmilitary organization.
    And I think the idea to be involved in national security 
you have to be in uniform is something that in the age of sort 
of cyber capabilities we need to move away from. And something 
that, as Richard suggests, takes a more imaginative approach to 
how we manage some of the threats we face is definitely 
something that could well be explored.
    Mrs. Walorski. And is there a benefit in displaying some 
offensive cyber capabilities in some way that we do possess as 
a nation, or--it seems that, of all the hearings that I have 
sat in, we always hear the lack, the holes, things we could be 
doing better. Are there things that we actually do right now 
that are kind of like the kingpins that hold us together to be 
able to at least get the information that we have without going 
into anything that we classified.
    Is there a benefit in kind of letting the world know that 
we are not just playing catch-up; there are things to at least 
get out there in the cyber world that we are doing or something 
like that?
    Mr. Delfino. I think there is a benefit to doing the 
offense, I don't know if there is a benefit to displaying it.
    Mrs. Walorski. So how would we do the offense? And what 
would we do internally? When would we do that? Because it seems 
like that isn't happening.
    Mr. Delfino. Right. And I think, you know, there are things 
that we don't know that we assume that the U.S. does because we 
are not taking responsibility for that. Right? Stuxnet and the 
Iranian nuclear reactor would be a good example of that. Right? 
And I don't know that we could claim credit for that, nor do I 
think we should.
    Mrs. Walorski. Right.
    Mr. Delfino. However, leaving the enemy guessing about was 
that a response for something I did may be a very good tactic 
offensively.
    Mrs. Walorski. Yeah. Mr. Wallace.
    Mr. Wallace. I also think that we shouldn't necessarily 
think of offensive cyber operations purely in the context of a 
stand-alone covert operation, which are probably outside the 
realms of the DOD's title 10 mission.
    But, actually, there may well be opportunities within a 
warfighting context where you can save lives, but the lives of 
U.S. personnel and indeed, civilians and perhaps even enemy by 
using capabilities, putting down an air defense capability that 
you couldn't do with kinetic weapons. And I think it is 
difficult to demonstrate, but over time could prove extremely 
important.
    Mrs. Walorski. I appreciate it.
    Thank you, Mr. Chairman. I yield back.
    Mr. Wilson. And thank you, Mrs. Walorski.
    And we now proceed to Mr. Ashford of Nebraska.
    Mr. Ashford. Thank you, Mr. Chairman.
    This has been extremely interesting to me, this 
conversation, and we have learned a lot.
    Of course, it was dramatized in the movie at Bletchley Park 
when Ultra was just developed during World War II. And one of 
the parts--and you have talked about this a little bit, but 
maybe we can talk about it just a little more, but the idea, 
the cultural, sort of obstacles that we saw in Bletchley Park 
at the beginning, before the code was broken and during that 
whole process--I realize it is a while ago, but Mr. Wallace 
talked about prior to World War II and the developments in 
Britain, and you've talked about the cultural thing. But I am 
really intrigued by it.
    I know in Omaha, where I am from, Omaha, Nebraska, there 
are many young private sector tech startup companies that do--
have had some, maybe some history with these kinds of matters. 
And you have talked about it, but how do we break down those 
cultural barriers? Could you go through that once again? We 
encourage people to work on this. They can go back to the 
private sector, I get that. Would you say these cultural 
barriers are significant? Are they being worked on? What is 
your vision timeframe-wise to kind of break down some of these 
boundaries and obstacles to integration, getting the best 
people working on these issues? Maybe just----
    Mr. Bejtlich. Certainly. So my observation has been in 
certain parts there is more supply than demand. So the Army has 
gone through a very successful exercise, putting out a call, 
for people within the service now who want to go into cyber. 
And they have gotten many applicants. Things are going well.
    The question is, where are they going to be in 2 years or 4 
years. You have already seen the attempt to build a Cyber 
Mission Force and other parts at Cyber Command. They are still 
struggling to fill those spots. I do think when you are looking 
at military personnel, ultimately, how are they rewarded? How 
are they viewed compared to their peers?
    You know, in the Air Force, you know, the pilots were the 
top. You are not going to get a cyber commander of the Air 
Force. You are not maybe even going to get an intel commander 
of the Air Force. You could probably get an airlift commander 
of the Air Force, but you are not going to get some of these 
other people. So I think if you want to be able to keep and 
retain the best for the longest period of time, you are going 
to eventually have to break them off and have them be their 
own.
    Now, that doesn't mean no cyber or any other forces. I 
think tactical cyber supporting physical missions should remain 
with the other services, cyber, it is in everybody's lives. But 
I think that at the end of the day, strategic cyber is probably 
going to have to be its own service with its own culture and 
its own ethos.
    Mr. Ashford. Mr. Wallace.
    Mr. Wallace. Practice, war-gaming, going through the 
motions, working between the services, bringing in the private 
sector to go through scenarios that reflect events that may 
happen in the future is, to my mind, the best way of 
identifying the problems, getting people of different cultures 
to understand ahead of the point where they have to do it for 
real where the other people are coming from.
    And to the point that Congressman O'Rourke made about 
analogies, one of the real triumphs of the interwar years was 
practicing and trying things out before having to do them for 
real and developing new concepts off the back of that. And I 
think that is going to be important in this area too.
    Mr. Ashford. Thank you.
    Mr. Delfino. I would just add, in the context of public-
private partnership in this area, you could make a private 
sector rotation, job rotation, a condition of promotion to the 
Senior Executive Service as well as part of this.
    Mr. Ashford. Thank you. Dr. Schmidt.
    Dr. Schmidt. With regard to rotating between public and 
private, I think one of the key problems that DOD faces is 
retaining the highly skilled folks around the 6- to 8-year 
mark. And that is, in fact, what Mr. Bejtlich was talking 
about, about this time that he was starting to get interested 
in the commercial sector.
    So if there can be something done to help retain those 
folks either through incentives to stay in or other 
opportunities to rotate to the commercial sector, that could 
help solve one of DOD's primary problems.
    Mr. Ashford. All right. Thank you very much. I think we 
have talked a lot about that with the NDAA [National Defense 
Authorization Act] this year, to try to think about about how 
do we retain. And in this area it is a significant challenge. 
Thank you very much.
    And I yield back. Thanks, Mr. Chairman.
    The Chairman [presiding]. Thank you.
    Ms. Gabbard.
    Ms. Gabbard. Thank you very much, Mr. Chairman.
    You know, the issue that you are bringing up of how to just 
completely change the way we think about how we bring in the 
best talent to deal with these cybersecurity challenges and 
thinking outside the traditional concept of well, it has to be 
in uniform if you are dealing with the Department of Defense I 
think is really at the crux of all this, to make sure that we 
are on the cutting edge of this constantly changing and dynamic 
area.
    I am interested to hear your thoughts on Secretary Carter's 
implementing this initiative to work closer with Silicon 
Valley, what you see, maybe the pros and cons of that, how we 
can benefit, or maybe what some of the barriers are to the DOD 
being able to really get the best of what that policy, I think, 
hopes to accomplish.
    Mr. Bejtlich. Just two quick points, ma'am. I would like to 
endorse Mr. Delfino's earlier comments about the difficulty of 
small companies doing business with DOD. And on a related 
point, when we are operating under continuing resolutions, it 
is tough to get new programs going. And so that has been a 
challenge for the private sector for the last several years.
    Mr. Wallace. I would just add that I think it is absolutely 
essential that the DOD has access to the best technology 
available, but I also think it is important to recognize that 
working with Silicon Valley it is not a silver bullet. There 
are good reasons why Silicon Valley companies who depend on 
international markets for their entire business model, they're 
not necessarily going to roll over and work with the DOD in the 
way that DOD might necessarily want. So, I think it is 
important, but it is not the silver bullet, nor do I think that 
DOD thinks it is.
    Dr. Schmidt. I would just like to point out that I think 
things like pursuing personnel that have STEM [science, 
technology, engineering, and mathematics] degrees in electrical 
engineering, computer science, information technology, would go 
a lot further than a couple of small initiatives associated 
with Silicon Valley.
    Mr. Delfino. I would have to agree extensively with Dr. 
Schmidt here. I don't think this problem should be that 
complicated. I think if you are pursuing a career in 
cybersecurity or information technology as a long-term 
investment, I am sure many of us would be thrilled to hire 
folks who worked in cybersecurity and U.S. Department of 
Defense or other U.S. intelligent agencies as well, and they 
would be rewarded greatly.
    So, I think this is about keeping the pipeline of talent 
coming in. I am sure that we don't want the DOD to become the 
training ground for information technology in cybersecurity 
across America. However, our ability to attract that young 
talent going into university and coming out of university, 
particularly from those acclaimed universities, is something 
that the DOD can successfully do.
    Ms. Gabbard. Thank you. And forgive me for coming in late 
if you have already addressed this. If you could briefly state 
the major cybersecurity breaches that we have seen across the 
Federal Government, really within the last several months, 
would you say those are primarily attributed to a lack of 
technical capability, or is this a larger policy issue?
    Mr. Delfino. I don't think this is so much as a policy 
issue, and I don't think they differentiate dramatically from 
those that we are seeing in the private sector either. There 
are common exploits that the attackers are using across both 
public and private sector as well as military and classified 
networks as well. I have addressed a list to some extent in my 
written statement. We continue to see this, and until we change 
the technology that we are using, we are going to continue to 
see this.
    The private sector exploits of Target and Home Depot and 
JPMorgan Chase that we saw were 3 years ago from companies that 
are extremely sophisticated, wildly intelligent, and have 
massive technology budgets. And there are some fundamental, 
foundational network architecture problems that are allowing 
these attacks to continue to happen. And until we change the 
way we build and construct these and automate these 
infrastructures as well, both from putting security in to 
defending once we see a cyberattack, we would likely continue 
to see these issues.
    Ms. Gabbard. Do you see those changes being implemented in 
the private sector?
    Mr. Delfino. They are in the acceleration stage of being 
implemented in the private sector. So these are things that are 
not new now. People get the reason why. They have tried 
traditional methods. I would point you back to General Keith 
Alexander's comment, former director of National Security 
Agency: ``I look at the DOD architectures today, and defending 
them is really hard. We have 15,000 enclaves, each individually 
managed.''
    People are starting to realize that physical separation, 
you know, can get you security to a point, but as you start to 
scale it becomes unmanageable, operationally infeasible, and 
over time becomes so complex you actually may get reduced 
security from it.
    Ms. Gabbard. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And again, thank each 
of you for your input today.
    Mr. Bejtlich, with your military background, what is the 
role that DOD should have in protecting the critical 
infrastructure from cyberattack or intellectual property from 
cyber espionage?
    Mr. Bejtlich. Thank you for the question, sir. As I 
mentioned in my written testimony, I think it is difficult to 
have the DOD directly involved at the customer end of this 
problem. For the most part, these sectors don't want troops 
stationed nearby. They don't want government sensors on their 
networks. So I feel that that is the realm of the private 
sector and those entities themselves, which can be guided, 
perhaps, through better incentives and regulation.
    But I think that as far as DOD is concerned, I would put 
pressure on those adversaries twofold. One, you want to know 
what they are up to so you can interdict their activities. And, 
two, you want to introduce some friction into their activities 
so they don't have free rein against their targets. And then 
when they do see something coming down the pike, you have got 
to warn those targets that this is about to happen and work 
with them to try to prevent that breach from occurring.
    Mr. Wilson. And, then specifically, I am concerned about 
the electrical grid. And so what would be the DOD role to 
protect the electrical grid for the people of the United 
States?
    Mr. Bejtlich. I would identify which foreign actors are 
considering trying to take down the power grid. I would target 
their activities. And when I see them trying to or planning to 
do something like that, I would hit them preemptively.
    This is one of the cases where it would be worth the gain-
loss in the intel equation to disrupt their activities, and 
potentially lose a source rather than sit back and have to 
recover from a power grid failure.
    Mr. Wilson. And for anyone who would like to answer, I am 
really concerned about DOD protecting its networks and mission 
systems from attack. Has this adequately been provided?
    Dr. Schmidt. I think that's yet to be determined. 
Certainly, the risk management approach that they have put in 
place is an excellent step in the right direction, but it all 
comes down to the implementation of that framework. I think 
identifying the vulnerabilities and more critically their tie 
to missions is what it is all going to come down to.
    I think the strategy doesn't fully describe how they will 
implement that objective, and I would like to hear more about 
the implementations, specifically, for missions systems and how 
it relates to critical DOD missions.
    Mr. Wilson. And I am particularly concerned about the 
systems relative to air defense. Would anybody comment on that, 
or missile defense?
    Mr. Bejtlich. Sir, it is interesting you bring that up. Air 
defense is one of the physical systems that has an attack, a 
cyberattack, associated with it. Apparently, there has been--
the Israeli Air Force did something to Syria at some point in 
the last 5 years. We don't really have any unclassified 
corroboration of this. I am not saying I have classified 
corroboration; I am just saying this is what I have read. So it 
is potentially a system that has seen a physical effect due to 
cyber.
    Mr. Wilson. And I have a great concern about the 
capabilities of DPRK [Democratic People's Republic of Korea], 
North Korea, and its capability of intercontinental ballistic 
missiles with an inability on our part to protect the American 
people. Is that a legitimate concern?
    Mr. Delfino. Sir, I think, you know, there are elements of 
the DOD and the government, specifically STRATCOM [Strategic 
Command] is doing very well at this, the DISA [Defense 
Information Systems Agency] milCloud is doing very well at 
this, and specifically, the Missile Defense Agency is doing 
well in implementing automation and cloud-based technologies 
and the appropriate security technologies to protect that 
infrastructure from DPRK or other nation-state actors as well.
    Mr. Wilson. And a challenge it's developing, is the 
capability of mobile missiles being developed by--such an 
extraordinary challenge and threat to us. And so, again, I want 
to thank you for being here, and we all look forward to your 
input to protect the American people.
    I yield.
    The Chairman. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. And I also would be 
remiss in not acknowledging and thanking Chairman Wilson for 
his leadership on this issue as well. It has been a real 
pleasure working with him as the chairman, me as the ranking 
member, he as the chairman of the Emerging Threats and 
Capabilities Subcommittee. He has really done a deep dive on 
this, and I appreciate his leadership, so thank you, to both 
chairmen.
    So if I could just ask a couple last questions that I had. 
Given your disparate backgrounds, if each of you could see the 
DOD CIO successfully and fully implement just one policy, what 
would it be?
    Mr. Bejtlich, want to start with you and go down the line.
    Mr. Bejtlich. Sir, I think you win the toughest question 
award for the hearing.
    I would like to see a strategy that is based--first of all, 
a strategy, that is based on recognizing that adversaries will 
get into the network, that the goal should be to minimize what 
they can do, and that you achieve that by seeing them as 
quickly as possible and containing them.
    And then being a beacon for the rest of the government. 
This is one of the few areas, I think, where--not one of the 
few areas, but this is an area where DOD does a pretty good job 
already. So taking that expertise and leveraging it and 
teaching the rest of the government would be a great 
achievement.
    Mr. Langevin. Thank you.
    Mr. Wallace. I am afraid that question probably takes me 
beyond my level of expertise, but I certainly don't disagree 
with what Mr. Bejtlich said, that making sure that the DOD's 
expertise is leveraged by the rest of government and learning 
the lessons. DOD is not perfect, but taking those lessons and 
leveraging them across government I think is an opportunity 
that should be taken.
    Mr. Delfino. Congressman, I will simply respond by saying, 
I think if the DOD only did one thing, we would have a much 
bigger problem. I think the first thing they need to do is 
recognize that this is a multifaceted, complex problem which 
requires multiple serial strategies being put in place 
simultaneously to address.
    So if they only do one thing or there is really not one 
thing that is more important than the many things that need to 
be done here. And I do think that the Joint Information 
Environment is a good step in the right direction, caveating 
the successful execution and implementation of that technology.
    Dr. Schmidt. I think DOD has recently issued policies that 
are aimed at securing the cyber acquisition chain. So looking 
at major weapons systems acquisition and thinking about how to 
properly do that such that they are defensible in the future. I 
think that that has been a good step. What I think could also 
be needed is looking at legacy weapon systems, the ones that 
are already fielded and that where the cyber acquisition 
policies won't come into play as effectively, what can DOD do 
to make sure that those legacy weapon systems are cyber secure.
    Mr. Langevin. Thank you. And if I could, Dr. Schmidt. I 
find your testimony regarding deliberate planning for cyber 
operations very interesting.
    What should we do today to enable the kind of deep analytic 
work you refer to?
    Dr. Schmidt. So I am referring to a deliberate planning for 
cyber operations in terms of getting those offensive 
capabilities ready to be used in case they are called upon to 
do so. And so commanders need to have the confidence in those 
kind of capabilities that they have in conventional weapons. So 
we have had decades upon decades of experimentation and tests 
and very rigorous test designs, data collection, and analysis 
efforts that have led to, on the conventional side, deep 
physics models and an understanding of how those weapons are 
going to perform when they are called upon to be used.
    I think we need exactly the same thing on the offensive 
cyber side, and that is going to require an investment in 
designing those kinds of tests to explore how they're going to 
be used, what the operational conditions will be in those 
settings, and especially to ensure that the offensive cyber 
capabilities don't have unintended effects. Because only then 
will commanders have the confidence that is required to deploy 
those capabilities to contribute to the deterrence that we 
desire.
    Mr. Langevin. Is DOD paying enough attention right now to 
that? In the sense that war-gaming these types of things out 
and so they fully understand the capabilities they have at 
their disposal and how to use them?
    Dr. Schmidt. I think it is a growing area of concentration. 
I definitely think more could be done to make sure that we 
characterize the capabilities.
    Mr. Langevin. Okay. Thank you.
    Thank you, all. Mr. Chairman, I yield back.
    The Chairman. Thank you.
    I want to, I guess in some ways, follow through on some of 
that. I don't think we talked too much about supply chain, and 
yet there are very few things DOD buys these days that don't 
have some component, either the hardware or the software, that 
comes from other places. And, you know, mostly when we talk 
about cyber we think about networks and going through the 
Internet to have effects somewhere else.
    But do any of you all have suggestions on this supply chain 
issue where there may be corrupted, tampered hardware or 
software that makes it into important systems that create 
vulnerabilities for us? And probably, my guess is, there is no 
way we can be assured of finding it all. So what do we do?
    Mr. Delfino. Thank you, Mr. Chairman.
    This is why we have to move to a model where there is no 
longer a trusted element inside of the infrastructure as well. 
Whether it was maliciously tampered with by a private entity or 
a foreign government or somebody within the United States 
itself or it is just, many of these devices that we are finding 
today that are being inputted into the network have software in 
them that has known vulnerabilities, right? And I don't know 
that the DOD has the ability to test every single device that 
comes into its infrastructure itself.
    And this moves to the model where we have to have--there is 
no longer a people outside the perimeter are untrusted and 
people within the perimeter are trusted. Everybody has to be 
treated as an untrusted entity so that at the time that that 
device or piece of software tries to propagate malware or a 
virus or spyware within the environment, it can be detected 
automatically and shut down and defended against.
    Mr. Bejtlich. Sir, just briefly. I come at it from a 
slightly different angle. I would come at it from the 
counterintelligence perspective. Best way to find out if the 
adversary has ways into your system is to be inside theirs and 
notice, hey, these guys are getting into our systems, or they 
have a plan to do so, or they have a team that is standing up 
to do that activity. That could be potentially another way to 
find out what's happening.
    The Chairman. Both Mr. Bejtlich and Mr. Wallace say that 
the Federal Government, the military, should not defend private 
infrastructure, although Mr. Bejtlich says, well, we ought to 
create some friction, you know, don't let them have it too 
easy, which is kind of an interesting subplot.
    So if I am a major company--if I own a bunch of refineries 
in the Houston ship channel and a bunch of bombers come my way, 
I know what I expect the United States Air Force to do to 
protect me. A bunch of packets come against those same 
refineries from somewhere, I may or may not have the ability to 
get the attribution on that. I take your point on attribution. 
So the Federal Government is not going to defend me, so I am 
left on my own. And my options, then, are to sit there and take 
it or have, if I am sophisticated enough, some sort of 
retribution on my own, which leads to all sorts of problems.
    Is that really a good scenario? And if other nation-states 
or terrorist organizations or Russian mafia know that we won't 
defend these companies, doesn't that open it up and they know 
how far to go and to take advantage of it? So explain to me why 
that is a preferable way of doing things.
    Mr. Wallace. Can I just clarify my answer?
    The Chairman. Yes, of course. I obviously summarized in 
great generalities.
    Mr. Wallace. So, in extremis, I absolutely believe that it 
is the role of the military to defend the United States against 
attacks of a serious consequence. What I think is important, 
however, is to avoid the military becoming the first place that 
the private sector turns to when it feels under threat.
    There is a number of other places that they can go, 
firstly, others in the private sector to improve not only their 
capabilities to defend themselves, but also that resilience 
when they do get attacked, the deterrence by denial, if you 
like.
    Secondly, I think it is not necessarily the case--that in 
this area that you need to be wearing a uniform and having gone 
through military training to be--to be a Federal Government 
employee supporting the private sector. And so, it doesn't need 
to be the case that the military has to be the place even 
within the Federal Government that the private sector would 
turn to when it feels it needs to.
    And so my point is not necessarily that the military 
shouldn't defend the private sector in certainly, particularly, 
in a warfighting environment where the homeland is under threat 
as a result of what the military is potentially doing overseas, 
there needs to be cooperation. But I do think that if the 
military becomes the first place everyone turns to, that is 
going to be a burden which the military cannot bear in the long 
term.
    Mr. Bejtlich. Sir, if I could address it as well. I agree 
with what Mr. Wallace said, but I also would like to mention 
two things. One, would the government have been effective as it 
was with, say, OPM? Maybe not. Who knows.
    So, the second issue is one of time. I think there is a 
perception, and you probably even hear it from some of the 
witnesses, not here, thankfully, but sometimes witnesses 
wearing uniforms, where they talk about attacks at the speed of 
light or attacks at network speed. And it is this idea that 
there is this magic that is going to happen in a couple of 
seconds the whole world will explode. My own research has shown 
that many times it is taking days, weeks, even months from when 
an adversary first gets into a target to when they have their 
effect. So if at any point during that time, generally, it is a 
couple of weeks to a month, you are able to interrupt their 
activities, you win and they lose.
    So that gives time for, if the private sector entity hasn't 
dealt with it, you know, within the first week or whatever it 
is, the government can step in and say, hey look, you guys have 
a problem; you need to deal with this before they accomplish 
their mission. So I think there can be ways to have the 
government help without having say, government security 
equipment inside private sector organizations.
    Mr. Delfino. I think we need to be careful to say, should 
the DOD defend these American companies versus should they 
secure them and monitor them actively to see if they are under 
attack. I think if the DOD saw an active attack on a private 
sector U.S. entity by a foreign nation-state backer and had the 
ability to, they may stop it.
    But I do think it is a fair question to say, is it the 
responsibility of the DOD to respond on behalf of that private 
entity because of that, right? So if a warfighter was to show 
up and bomb a U.S. refinery, the DOD may defend that in the 
physical world and maybe should potentially do that in the 
virtual world as well. But I think we need to be careful not to 
take the responsibility off these private entities to secure 
and monitor their own infrastructure as well.
    Dr. Schmidt. And the strategy also provides for DOD's role 
in protecting critical U.S. interests of significant 
consequence, which would include loss of life and significant 
damage to property, although your----
    The Chairman. It says that, but I don't really know what 
they mean by that, which is part of why I was wanting to see 
what you all thought.
    I had one more, and I forgot what it was.
    Oh. Most of what we talk about is others stealing 
information. According to press reports, the Iranians actually 
destroyed computers with Aramco that had some consequence for 
the Saudi oil production. Do you all regard it as inevitable 
that at some point it won't just be stealing information, but 
there will be destruction of data or hardware, that there is 
inevitable escalation to these things with potentially more 
serious consequences on loss of life and so forth?
    Mr. Bejtlich. Sir, that is an excellent question. I do see 
that. Also not just wholesale destruction. It could be subtle 
corruption such that we can't trust what we are dealing with, 
which in some ways I would be more worried about, because at 
least if it is destroyed, I know, okay, I have to restore it 
from backups and such. But even the restoration part. There was 
a great talk recently by a young lady who was involved in the 
incident response at Saudi Aramco. They basically went to 
Japan, South Korea, and bought every laptop, hard drive, 
computer that they could find in order to bring that refinery 
back. That is not something you are going to be able to do over 
and over again.
    Mr. Wallace. I think over time, anything can happen. And 
definitely capabilities do exist to conduct destructive 
attacks. But I think we should be careful in expecting 
motivations of actors in cyberspace to be fundamentally 
different from actors outside of cyberspace. And there are 
significant reasons why adversaries would not want to conduct 
an out-of-the-blue attack.
    Where I think it is of more concern potentially, is inside 
a warfighting scenario where the United States is engaged 
overseas, it would be certainly an asymmetric option open to 
the adversary that was not available in years past to make an 
attack on the U.S. homeland. And understanding that dynamic I 
think is going to be important and probably more likely to be 
something that the DOD should consider than a bolt from the 
blue attack.
    As DNI [Director of National Intelligence] Clapper I think, 
said recently, data manipulation may be a more likely and 
worrying scenario than something destructive like Saudi Aramco.
    The Chairman. Okay. I am sorry. Did you have something you 
wanted to add?
    Dr. Schmidt. I was just going to mention that data 
manipulation is certainly being demonstrated in the academic 
sector. There are several studies that show that manipulating 
small bits of information, for example, in GPS signals can 
cause unexpected reactions when the data is processed within 
the computer and the GPS receiver, and it is something that DOD 
will have to take very seriously.
    The Chairman. It is a great point, and I guess kind of 
related to that, what, I think may be more likely is the sort 
of plausible deniability, it is not really us, you know, this 
is just happening on its own. We are seeing that in warfare in 
general to cause confusion and uncertainty to slow the 
response. And I agree if it is active warfare, then all holds 
are barred, but even to put pressure on our economy doing 
things with the banking system that you can't quite figure out 
why it is slowing down, et cetera, is a huge challenge.
    We could talk much of the day about the challenges we face. 
I really appreciate you all being here, and I think you have 
helped set up a number of the issues that we will address to 
the deputy secretary and Admiral Rogers tomorrow.
    And so thank you for your testimony. With that, the hearing 
stands adjourned.
    [Whereupon, at 11:58 a.m., the committee was adjourned.]

     
=======================================================================

                          A P P E N D I X

                           September 29, 2015

    
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 29, 2015

=======================================================================

            
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 29, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. SHUSTER

    Mr. Shuster. In your testimony, you said you do not support giving 
private sector, non-government parties the authority to conduct 
offensive operations. At what point do you think it becomes appropriate 
for the U.S. Government to investigate, prosecute, or defend private 
sector entities?
    Mr. Bejtlich. Private sector entities must comply with local, 
state, and federal laws governing breach disclosure, particularly with 
regard to loss of personally identifiable information. Beyond cases 
that involve mandatory disclosure, private sector entities make 
decisions by weighing the costs and benefits of engaging law 
enforcement. I personally encourage private sector entities to contact 
law enforcement because such engagement helps law enforcement build 
cases against perpetrators, ultimately contributing to their arrest and 
prosecution. Law enforcement should investigate and prosecute whenever 
they learn of an incident and can make a case.
    Mr. Shuster. You mentioned that VMware serves all sectors of the 
U.S. Government to include DOD, civilian agencies and the Intelligence 
Community. I recognize that each entity must develop a comprehensive 
cyber strategy yet I worry that differing strategies among our 
government entities could create challenges for companies like VMware 
that works across agencies. What issue areas are best legislated by 
Congress for the whole of government and what areas would you defer to 
DOD and/or other executive agencies to develop?
    Mr. Delfino. Congress can assist the efforts of developing a 
comprehensive cyber strategy by providing adequate funding for training 
of cyber employees to defend our nation. Experienced talent in 
cybersecurity is a specialized skill and Congress can encourage the use 
of special hiring authorities to pay experienced personnel competitive 
private sector rates. Congress can also assist agencies and the private 
sector in being better informed about cyber threats by passing laws 
that enhance government and private sector information sharing. Since 
technology is changing so rapidly, Congress should not legislate 
technology mandates but rather encourage the use of best practices that 
the private sector is adopting. In order to ensure the government has a 
comprehensive strategy, the Office of Management and Budget and the 
National Security Council should work across the civilian and defense 
agencies to set procedures, best practices, and metrics that the 
agencies can follow. Congress can assist these efforts by providing 
oversight and highlight the Executive Branch's progress or challenges.
    Mr. Shuster. In your written testimony, you addressed DOD 
shortfalls in both recruiting and retention of the cyber workforce. 
Often times, financial incentives are cited as the potential solution 
to these shortcomings. I agree with your statement that retention is 
closely linked to job satisfaction so my question is whether DOD's 
human capital management system is effective in placing the cyber 
workforce into positions that provide sufficient skill utilization and 
job satisfaction?
    Dr. Schmidt. I have not conducted a formal analysis of the extent 
to which the Department of Defense's (DOD's) approach to cyber 
workforce management succeeds in placing civilians and service members 
into jobs for which they are qualified. Furthermore, I am unaware of 
any such assessment for workforce management approaches following the 
new initiatives DOD unveiled in 2015.\1\ However, the work undertaken 
as part of the National Initiative for Cyberspace Education (NICE) 
Cyberspace Workforce Framework,\2\ which identifies the required skills 
for many cyberspace jobs, is a necessary first step toward performing 
any ``job analysis'' to evaluate the extent to which personnel matched 
to jobs possess the required skills to work effectively. Both receiving 
the right training (initial and continuing) and progressing through 
different jobs that draw on similar skill sets are important to 
ensuring personnel are well matched to job requirements.
---------------------------------------------------------------------------
    \1\ Department of Defense, Cyberspace Workforce Management, 
Directive 8140.01, August 11, 2015.
    \2\ NICE, National Cybersecurity Workforce Framework, Washington, 
D.C.: Department of Commerce, 2013. The services have adopted this 
framework to varying extents.
---------------------------------------------------------------------------
    I am also unaware of any formal analyses of job satisfaction among 
DOD's civilian and military cyberspace cadres. Conventional wisdom 
asserts that DOD offers its personnel unique opportunities to serve the 
nation and conduct high-stakes, highly dynamic operations they would 
find no place else; as a result, conventional wisdom asserts that job 
satisfaction is high. While this assertion rings true for some DOD 
cyberspace jobs (e.g., military personnel conducting offensive and 
defensive operations), I question the wisdom of applying such logic to 
DOD cyberspace jobs that both (a) require staff to manage a high 
operational tempo and other stressors on family and personal time 
(e.g., frequent changes of duty location and/or organizations) and (b) 
are similar to jobs conducted in the private sector (i.e., lack the 
``only in DOD'' allure). Therefore, an assessment of job satisfaction 
in the ``IT-like'' DOD Information Network Operations (DODIN Ops) job 
categories may be illuminating, as it may not adhere to conventional 
wisdom. Commercial-sector IT job satisfaction has been linked to the 
existence of defined career paths that allow growth and progression not 
only through advancement into the management ranks, but also through 
technical tracks that allow personnel to continue to learn, engage with 
professional peer groups, and innovate to keep pace with rapidly 
changing technology.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. WALZ
    Mr. Walz. There are several ongoing cyber initiatives between the 
National Guard and private sector. Are any of you familiar with any of 
these initiatives? If so, could you comment on the opportunity the 
Federal Government and DOD has to benefit from the lessons learned by 
these initiatives?
    Mr. Bejtlich. I am not deeply familiar with specific initiatives. 
However, I have observed National Guard cyber exercises involving teams 
from across the country. Although I saw a wide variety in the 
capabilities of the teams, some operated at very high levels. All were 
motivated to improve their skills. I believe that National Guard and 
Reserve components are part of the answer to better defense at a 
national level. However, I also believe the government should support 
research projects to evaluate the costs and benefits of an independent 
military Cyber Force.
    Mr. Walz. There are several ongoing cyber initiatives between the 
National Guard and private sector. Are any of you familiar with any of 
these initiatives? If so, could you comment on the opportunity the 
Federal Government and DOD has to benefit from the lessons learned by 
these initiatives?
    Mr. Wallace. [No answer was available at the time of printing.]
    Mr. Walz. There are several ongoing cyber initiatives between the 
National Guard and private sector. Are any of you familiar with any of 
these initiatives? If so, could you comment on the opportunity the 
Federal Government and DOD has to benefit from the lessons learned by 
these initiatives?
    Mr. Delfino. Yes, VMware is working with the National Guard Bureau 
at the Professional Education Center in Little Rock, Arkansas. We are 
helping the National Guard Bureau architect a cyber ``Classroom as a 
Service'' experience that allows cyber warrior training to be stood up 
in minutes and allows for realistic threat scenarios. This is based on 
the model VMware implemented at US Army Cyber Center of Excellence in 
Fort Gordon, Georgia.
    Mr. Walz. Do you believe DOD has a complete and comprehensive 
strategy for cyber policy? If not, what level of vulnerability risk 
would you estimate the DOD and Federal Government networks to be at, 
high, medium, or low?
    Dr. Schmidt. [No answer was available at the time of printing.]
    Mr. Walz. There are several ongoing cyber initiatives between the 
National Guard and private sector. Are any of you familiar with any of 
these initiatives? If so, could you comment on the opportunity the 
Federal Government and DOD has to benefit from the lessons learned by 
these initiatives?
    Dr. Schmidt. [No answer was available at the time of printing.]
    Mr. Walz. Including the data breach at OPM and the Joint Chiefs of 
Staff server, there have been several high profile government cyber 
breaches in the last year. Are these network compromises a result of 
lack of technical capability in the cyber workforce, or a lack of cyber 
policy that prioritizes protections? In your opinion, what actions 
would you recommend are the most important to take in reducing the 
likelihood of future data breaches and protect our cyber networks?
    Dr. Schmidt. [No answer was available at the time of printing.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
